   LEGAL SERVICES CORPORATION

       BOARD OF DIRECTORS




               America’s Partner For
               Equal Justice




SEMIANNUAL REPORT TO THE CONGRESS

          FOR THE PERIOD

 APRIL 1, 2001 – SEPTEMBER 30, 2001



                     NOVEMBER 30, 2001
                                   FOREWORD

       I am pleased to transmit the Semiannual Report of the Legal Services Corporation
(“LSC” or “Corporation”) Board of Directors (“Board”), providing comments on the
Semiannual Report of LSC’s Office of Inspector General (“OIG”) for the six-month
period of April 1, 2001 through September 30, 2001, and providing further explanation of
LSC’s activities during the reporting period.

        LSC’s Board recognizes the value of the Inspector General function and remains
committed to working with the OIG to achieve our goal of providing high quality legal
assistance to the poor of our nation.



                                                   ______________________________
                                                   Douglas S. Eakeley, Chairman
                                                   Legal Services Corporation
                                                   November 30, 2001.




                                           i
                                     TABLE OF CONTENTS

Message of the Board of Directors .........................................................................1

Background ..........................................................................................................3
      The Legal Services Corporation ..................................................................3
      Funding and Grant Making Activities .........................................................3

Management Initiatives............................................................................................4
      Strategic Directions......................................................................................4
      State Planning ..............................................................................................4
      Competition..................................................................................................5
      Technology Efforts ......................................................................................6
      Program Visits .............................................................................................7
      ‘The Results Project’....................................................................................7
      Diversity.......................................................................................................8
      Client Conference ........................................................................................8
      Information Management.............................................................................9
      Characteristics of Model Intake Systems.....................................................9
      Poverty Law Research Training.................................................................10
      Rulemaking Activities ...............................................................................10
      LSC Task Force to Study & Report on Configuration of Service
        Areas .......................................................................................................11


Table I: Management Report on OIG Audit Reports of Grantees
         Issued With Questioned Costs for the Six-Month
         Period Ending September 30, 2001 ........................................................12

Table II: Management Report on Audit Reports Issued
          During the Six-Month Period Ending
          September 30, 2001, With Recommendations
          That Funds Be Put to Better Use ...........................................................13




                                                     ii
                    MESSAGE OF THE BOARD OF DIRECTORS


        During the reporting period, former President John McKay left his position to
pursue an appointment as United States Attorney for the Western District of Washington.
The LSC Board selected former Representative John N. Erlenborn to assume the LSC
Presidency commencing on July 1, 2001. Representative Erlenborn (R-IL) served 10
terms in the United States House of Representatives from 1965 to 1984. Mr. Erlenborn
has a longstanding commitment to civil legal services for the poor, having served as a
House manager for the Legal Services Corporation Act of 1974. Mr. Erlenborn is
currently serving his second term on the LSC Board, having been appointed by President
Bush in 1989, and reappointed by President Clinton in 1995. The Board anticipates that
Mr. Erlenborn will remain LSC’s President on an interim basis until a successor is
appointed.

         LSC made continued progress in its State Planning Initiative during the reporting
period. Over the past six months, LSC implemented structural changes in fifteen states in
order to develop more effective and economical legal services delivery systems. The
consolidation of service areas and programs1 in these states has been designed to
maximize economies of scale, evenly distribute access to services, and broaden the
delivery of the services available to low-income clients. LSC also provided technical
assistance to fourteen states to assist them in planning and implementing the structural
and service delivery changes necessary to achieve state planning goals. Finally, LSC
staff traveled to thirteen states to conduct evaluative and planning meetings with grantees
and state equal justice planning bodies.

       There are currently, in calendar year 2001, 205 LSC grant recipients for Basic
Field-General, Basic Field-Migrant, and Basic Field-Native American service areas.
LSC anticipates that there will be 170 grant recipients for these service areas at the
beginning of calendar year 2002.

      LSC's State Planning Initiative is premised on the belief that LSC-funded
programs must:

•   function as a statewide, concerted, coherent, closely-coordinated legal assistance
    delivery system;

•   include other equal justice partners in the creation and implementation of this
    coordinated delivery system;

•   develop additional resources to expand legal services;


1
 ‘Programs’, ‘recipients’, and ‘grantees’ are used interchangeably in this report to refer to recipients of
LSC funding.


                                                      1
•   incorporate the views of clients and key partners in making major decisions about
    how to design and implement a comprehensive system of high quality legal services;
    and

•   target legal services resources to achieve the greatest measure of equal justice for
    clients and economically disadvantaged people.

        LSC’s ultimate goal in this regard is to help grantees create state communities of
justice – integrated and coordinated legal services delivery systems which
comprehensively improve grantees’ delivery of services to clients. LSC has made
significant progress in this effort and continues to assist recipients in improving the
quality of legal services nationwide.

       LSC has also continued to undertake a number of other initiatives to support its
grantees and to improve the quality and accessibility of their services. To further its goal
of expanding recipients’ use of technology, LSC has recently completed its second round
of Technology Initiative Grants (“TIG”). In addition to promoting the creation of
statewide websites, the most recent TIG awards promote the sharing of technological
resources on a national basis among recipients.

         Some of LSC’s additional efforts during the reporting period include program
visits to discover innovative procedures that may serve as models for other programs; the
continuation of ‘The Results Project,’ a new data collection process designed to capture
information on the breadth of grantee accomplishments beyond case handling; the
convening of a series of dialogues on diversity within the legal services community; the
hosting of a client conference designed to empower clients to assist themselves; an
information management project designed to identify model and innovative procedures
used by grantees, which will be shared via the LSC website; the identification of
characteristics of model intake systems, to be shared among all LSC grantees; and
continued review of LSC regulations, including likely revisions to the regulations on
financial eligibility, representation of aliens, and welfare reform. LSC also continues
actively to monitor its grantees for compliance with federal law and LSC regulations,
working closely with the Office of Inspector General.




                                             2
                                      BACKGROUND


Legal Services Corporation
        The Legal Services Corporation is a private, non-profit corporation established in
the District of Columbia by the Legal Services Corporation Act of 1974, as amended (the
“LSC Act”), 2 to provide financial support for legal assistance in civil proceedings to
persons unable to afford legal services. LSC is governed by an eleven-member bi-
partisan Board of Directors appointed by the President of the United States with the
advice and consent of the Senate. The Board appoints LSC’s President, who serves as
the Corporation’s chief executive officer, subject to general policies established by the
Board.

       The 1988 Amendments to the Inspector General Act of 1978 (“the 1978 Act”)
required LSC to establish an Office of Inspector General (“OIG”) and extended specific
provisions of the 1978 Act to LSC. Accordingly, such an office was established by and
for LSC. The Inspector General is appointed by, reports to, and serves under the general
supervision of, LSC’s Board of Directors.

Funding and Grant-Making Activities

        LSC provides funding to legal services programs serving indigent persons
throughout the 50 states, the District of Columbia, Puerto Rico, the U.S. Virgin Islands,
Guam and Micronesia. To carry out the purpose of the LSC Act, Congress approved an
appropriation of $329,300,000 for LSC for fiscal year 2002 in the Commerce, Justice,
State and the Judiciary appropriations bill.




2
    42 U.S.C. '' 2996-2996l.


                                            3
                             MANAGEMENT INITIATIVES


         During this reporting period, LSC continued its efforts to improve the efficiency
of its competitive grant award system and the effectiveness of the delivery of legal
assistance by its initiative for statewide planning and coordination of legal services. The
Corporation continued to demonstrate its ability to ensure both compliance with program
rules and regulations, and the maintenance of high quality legal assistance to eligible
clients.

Strategic Directions
       LSC’s current, primary focus is addressing the goals of its strategic directions.
Adopted by the Board of Directors on January 28, 2000, Strategic Directions 2000-2005
commits LSC to increase dramatically access to legal services and ensure high quality
services. All of the programs’ initiatives discussed below should be understood in the
context of these two goals.

State Planning
        LSC continues to promote efforts by its grantees to develop comprehensive,
integrated delivery systems that reach a greater number of persons, with a broader range
of services. The state planning initiative requires grantees to work with other providers
and stakeholders within each state, such as the courts, bar associations and client groups,
to assure that a full range of high quality services are available to clients regardless of
their location within a given state.

       During the past reporting period, LSC implemented structural changes in the
following fifteen states in order to develop more effective and economical systems for the
provision of legal services to low-income clients: Arkansas, Illinois, Kentucky,
Louisiana, Michigan, Mississippi, New Mexico, North Carolina, Oklahoma, South
Carolina, Tennessee, Texas, Virginia, West Virginia, and Wisconsin. Consolidation of
service areas and programs in these states will enable recipients to take advantage of
economies of scale, evenly distribute access to services, and broaden the delivery of the
services available to low-income clients.

        LSC made technical assistance available to the following fourteen states to assist
them in planning and implementing the structural and service delivery changes necessary
to reach these goals: Arkansas, California, Iowa, Louisiana, Michigan, New Mexico,
New York, North Carolina, Ohio, Pennsylvania, Tennessee, Texas, and West Virginia.
State planning staff within LSC’s Office of Program Performance (“OPP”) also
continued to assist programs involved in mergers. In conjunction with other LSC staff,
state planning team members advised numerous programs and stakeholders about LSC’s
substantive and procedural requirements for mergers and consolidations, as well as LSC’s
expectations for the new delivery systems.


                                            4
        LSC state planning staff also traveled to the following thirteen states to conduct
evaluative and planning meetings with grantees and state equal justice planning bodies:
Alabama, Georgia, Massachusetts, Michigan, Mississippi, Missouri, Montana, New
Jersey, North Dakota, Oregon, South Carolina, South Dakota, and Tennessee. Varying in
length from several days to a week long, these visits inform LSC of the progress and
challenges in these states. They also provide grantees and their partners with solid
information about achievements in other jurisdictions, innovative ideas, and LSC’s
expectations.

        Taken together, these efforts have resulted in significant, positive changes for
LSC’s clients throughout the country, including development of additional resources for
civil legal services, new and more efficient ways of providing legal information and
advice to low-income persons, and more effective and economical structures to assure
equal justice to a greater number of Americans.

Competition
        The competition process continues to evolve into an even more useful tool for
capacity building within the legal services delivery structure, for identifying areas for
further improvement, and for networking legal services programs into comprehensive
integrated delivery systems.

        The competitive grants process is fully automated, permitting analysis of a
continuous stream of current information on legal needs, response strategies, and
administrative and management systems. As a result, LSC can develop greater
intelligence about the many strengths and potential weaknesses in the delivery system.
Model program initiatives, advances in technology, programs diversity and training
strategies, and new client-centered delivery strategies are being identified through the
competition process so that they can be shared and replicated by legal services programs
across the country.

        The 2002 competition process is nearing completion. After an initial settling out
period, nine service areas had more than one applicant. LSC expects to announce the
results of this grant competition by the third week of November.

       LSC is working to improve the competition process through refinements to the
Request For Proposals (“RFP”) procedure and simplification of the methods by which
LSC obtains applicant information essential to the delivery of high quality, client-
centered legal services. LSC's competitive grants process remains responsive to the
Congressional requirement to award grants through a system of competition and to assure
the most efficient and effective delivery of services to the client community.




                                            5
Technology Efforts
       During the reporting period, LSC completed the competition for its second round
of Technology Initiative Grants (“TIG”). It received 95 applications totaling $19.2
million in requests, and it awarded 55 grants with the $7 million allotted for TIG in
FY2001 by Congress.

        One of LSC’s goals this year was to promote the creation of statewide websites
using templates developed with FY2000 TIG awards. LSC encourages the inclusion on
these sites of self-help materials and legal information for clients, materials for legal
services advocates, and materials for pro bono attorneys. During the reporting period,
LSC made grants to 28 states to accomplish this objective. As a result of the TIG awards,
over 30 states will have statewide websites within two years. Several companies,
including Pro Bono Net, Inc. and Kaivo, Inc., are assisting programs in the
implementation of statewide websites.

        Over the past six months LSC continued to encourage grantees to work
cooperatively on statewide technology initiatives beyond statewide websites, and it
awarded 13 grants for such purposes. Several such grants were for the creation of
statewide intake systems, which will enable clients to access information and assistance
through a single toll-free number. These grants will also assist states in improving access
to their case management systems, thereby allowing the completion of intake from
remote locations and by pro bono attorneys.

       During the reporting period LSC made its first national TIG, for the creation of
the National Technology Assistance Project (NTAP). This project will be coordinated by
the Legal Aid Society of Orange County in California and will involve the assemblage of
technology experts from grantees around the country, to assist programs with
management and/or technology issues associated with their grants.

       As a result of five important grants made during the reporting period and
described below, several grantees are at the forefront of technological innovation in the
delivery of legal services. These grantees will play an integral role in augmenting the use
of technology in legal services delivery nationwide.

        LSC recently awarded a grant to Legal Services of Southern Michigan (“LSSM”)
to create a national web site (www.lstech.org) containing resources on legal services
technology. This program will work closely with NTAP by, for example, allowing TIG
recipients to request assistance from NTAP through the submission of questions to the
LSSM automated help desk. LSSM is being assisted in the project by the University of
Michigan, which will provide servers, and the National Legal Aid and Defender
Association, which will provide content and technical assistance.

      LSC also made a grant to the Legal Aid Society of Cincinnati (“LASC”) to assist
programs with project evaluations by creating a national evaluation strategy to promote
maximal assistance to clients through the use of technology. LASC will develop the


                                            6
national evaluation strategy in conjunction with the Management Information Exchange
and experts on the subject of evaluations.

         To assist LSC recipients using the Pro Bono Net platforms for statewide websites,
LSC is providing a technology grant to the Northwest Justice Project for two national
'circuit riders.' Under the supervision of the Northwest Justice Project, these ‘circuit
riders,’ will provide assistance with content management and help programs create
statewide websites that support the broader state justice communities.

        During the reporting period, LSC awarded a technology initiative grant to Gulf
Coast Legal Services in Houston to create a national legal services virtual conferencing
center. This conferencing center will enable grantees to meet electronically using Webex
hosting services. These meetings may be used for technology trainings, state planning
sessions, and advocate trainings. The website for this virtual conferencing center is
www.legalmeetings.org.

        The five grants referenced above will assist programs in developing a range of
pro se tools far beyond those that have been available in the past. LSTech, the national
legal services resource website, and LegalMeetings, the legal services virtual
conferencing center, will be available to all LSC grantees.

Program Visits
        During the reporting period LSC has, as promised in its strategic plan, begun a
process of visiting programs to assess their quality, address their problems, and uncover
innovative procedures that may serve as models for other programs. LSC believes that
these visits will enhance its understanding of programs’ activities otherwise gleaned from
competition applications, grant activity reports and anecdotal information.

        Since April 1, 2001, teams consisting of LSC staff members and consultants have
visited 9 of the 12 programs identified for assessment. Two of the programs were visited
prior to the commencement of the reporting period. The twelfth visit will be completed
by the end of November 2001.

‘The Results Project’
        LSC has begun a new data collection process to capture information on the work
of LSC-funded programs that is not reflected in the case service reports (CSR’s), which
only report the handling of cases. This work, generally characterized as ‘matters’ on
program timekeeping records, includes: referrals; community legal education (CLE)
presentations; CLE materials, articles and web sites; pro se efforts; and other services
such as collaborative training, mediation and alternative dispute resolution work. This
information will be collected once a year as a supplement to the current Grant Activity
Reports. The collection of this information has been designed to minimize the imposition
of additional reporting burdens on LSC programs.



                                            7
        Initiated prior to the commencement of the reporting period, ‘The Results Project’
has continued on course during the past six months. After reviewing the results of a
preliminary test of data collection, the information collection process was finalized and
sent to all programs on May 15, 2001. On June 19, 2001, an on-line conference on the
implementation of the ‘matters’ data collection was held for all programs wishing to
participate. Data collection began on July 1, 2001.

        Because of the newness of this process, LSC anticipates some imperfections in
the first six months of data collection, as programs become accustomed to this new
reporting requirement. Nevertheless, LSC expects the information collected during this
period to be useful, and it further anticipates that programs will become fully acclimated
to this process during 2002, the first full year of reporting, and produce accurate
information which reflects the true breadth of accomplishments by LSC grantees.

Diversity
         Over the past year, and in partnership with the National Legal Aid and Defender
Association (“NLADA”), LSC has implemented a far-reaching diversity initiative,
focused on gender, race and related issues. Through a series of formally organized and
inclusive dialogues or “conversations” with staff, clients, and leaders in our community,
LSC and NLADA have gathered data on concerns, experiences, and ideas for change that
will help national organizations determine the best approaches to strengthening both
services and delivery structures. Each conversation will result in a short report, and the
initiative will culminate in a larger report containing recommendations.

        With one exception, each conversation has been national in approach and
organized around a large national conference, one of which drew many members of the
legal services community. LSC launched the initiative in March 2001, immediately prior
to the reporting period, with a conversation on gender and justice. In May 2001, LSC
held a two-day conference on a broader range of diversity issues, including gender, race,
ethnicity, disability, and sexual orientation and identity. In July 2001, LSC organized
three conversations on gender, leadership, and recruiting and retaining people of color.
These conversations were followed by a meeting in St. Louis, Missouri with program
directors from the Midwest Region. Shortly after the close of the reporting period, in
November 2001, LSC held an important, diversity conversation involving clients, in
conjunction with the NLADA Annual Conference.

Client Conference
        In April 2001, LSC held a three-day conference in Hershey, Pennsylvania,
entitled “Creating Client-Centered State Communities of Justice.” Clients and client
advocates, members of the bench and academic community, LSC board members and
staff, and other interested parties from 28 states comprised the 70 participants. The
conference provided a forum for the exchange of ideas about methods by which the legal
services community can better empower, strengthen and enhance the lives of legal
services clients.


                                            8
       The following six themes emerged from the conference:

   •   The importance of involving clients in the delivery of legal services;
   •   The need for client capacity building (i.e. increasing clients' knowledge of their
       rights and responsibilities);
   •   The need for greater inclusiveness in client representation;
   •   The need for broader connections and new partnerships;
   •   The need to communicate the richness of what is going on at the program and
       state levels; and
   •   The need for continuing dialogue.


       LSC believes that pursuit of these themes will promote its strategic planning goals
of dramatically increasing access to assistance and assuring high quality representation.
In June 2001, LSC published a final report detailing the topics covered at the conference,
the opinions expressed, and the conclusions reached. LSC is producing a further
response indicating the steps it will take to address the conferences themes.

Information Management
         As noted above, LSC believes that the cross-fertilization of good ideas is an
important step in addressing the goals of increased access to legal services and ensuring
appropriate, high quality legal assistance. In furtherance of these goals, LSC’s Office of
Program Performance (“OPP”) has initiated an information management project. The
project will gather information about model and innovative legal services management
and delivery approaches to afford greater access to the client community. LSC will place
useful information on its website so that programs can implement and replicate promising
models. LSC is currently gathering “best practices” and models within these areas and is
looking at proven techniques and innovative projects. The website will also allow users
to link to, and reference, worthy sources of material that already exist.

        LSC does not intend to duplicate the quality work that is already being done in
this realm. It will coordinate with other entities to the fullest extent possible. As a
funding source, LSC wants to encourage national dialogue on finding and sharing the
most effective approaches. LSC will assemble and share the information it collects for
this project in order to assist programs and state planning partners.

Characteristics of Model Intake Systems
       As part of its effort to encourage and promote innovative procedures, LSC is
producing a list of draft characteristics of ideal telephone intake, advice, and referral



                                            9
systems. These systems are relevant to LSC’s goals of enhancing access to services and
assuring high quality services in that they promote prompt client assistance, in a uniform
manner.

        Since May 2001, LSC has received many comments about the Draft
Characteristics from recipients and other interested parties. Those comments are now
being reviewed and considered by LSC staff. Appropriate changes may be made based
on the comments received. The Characteristics will be finalized and reported to the
public in January 2002.

Poverty Law Research Training
        LSC has contracted with the National Center on Poverty Law (“NCPL”) to
provide training for programs in 10 states on legal research in poverty law. Programs in
Alabama, Mississippi, Iowa, Oklahoma, Tennessee, South Dakota, Florida, Michigan,
and Puerto Rico, as well as the Native American program in Arizona, will receive this
training. The manual written by NCPL for this training will be made available to legal
services attorneys nationwide on NCPL’s website. Attorneys who have graduated from
law school since 1998 will also receive a free subscription to the Clearinghouse Review,
a poverty law journal, under this contract.

Rulemaking Activities
        During the reporting period LSC decided to undertake three rulemakings. LSC
announced its intention to conduct Negotiated Rulemakings to consider revisions to its
regulations on eligibility (45 CFR Part 1611) and restriction on legal assistance to aliens
(45 CFR Part 1626). Working Groups consisting of representatives from LSC, grantees
and national organizations interested in legal services have been appointed. It is
anticipated that the Working Groups will begin meeting under the direction of
professional facilitators in January 2002. In addition, LSC announced that it would
conduct a Notice and Comment Rulemaking to revise its regulations on welfare reform
(45 CFR Part 1639) to incorporate changes necessitated by the United States Supreme
Court decision in Legal Services Corporation v. Velazquez, et al., Nos. 99-603 and 99-
960, 121 S. Ct. 1043, 2001 WL 193738 (U.S., February 28, 2001).

        LSC also continues work on the thorough review of its regulations. This project is
consistent with the five-year strategic plan, “LSC Strategic Directions 2000 - 2005”
which, among other things, requires reviewing LSC’s regulatory compliance
requirements for efficiency, unnecessary duplication and burden, and implications for the
delivery of high quality, appropriate legal services. A final report of the staff task force
reviewing the regulations was published for public comment in September 2001. LSC
anticipates that the Board of Directors will consider the staff report and public comment
at its November 2001 meeting.

       Finally, LSC published a revised Property Acquisition and Management Manual
in September 2001. The Manual, which became effective on October 15, 2001, provides



                                            10
standards for the acquisition, management and disposition of property acquired, in whole
or part, with LSC funds.

LSC Task Force to Study & Report on Configuration of Service Areas
       In response to inquiries from the legal services community and Members of
Congress, the LSC Board of Directors established the LSC Task Force to Study and
Report on Configuration of Service Areas in June 2001. The Task Force was charged
with reviewing "existing policies, standards, and procedures governing state planning and
for defining service areas." Co-chaired by two LSC Board members, New Hampshire
Supreme Court Justice John T. Broderick and Ernestine Watlington, the Task Force, on
November 11, 2001, presented its final report to the LSC Board, which adopted the
recommendations.

        The action by the Board reaffirms its role in state planning and LSC's authority to
define service areas for the provision of legal services to low-income clients. The Board
action also codifies LSC's standards for reconfiguration of service areas and establishes a
review process for disputed configuration decisions, giving great weight to the judgments
of designated state planning bodies. In recognition of the crucial role played by equal
justice stakeholders in every state, the Board resolved that LSC would override local
decision-making only if there is "good and substantial reason" for the Corporation to
substitute its judgment for that of state planners. Such reasons must be clearly articulated
in writing and tied to LSC's published standards. LSC's State Planning Initiative has
transformed and improved civil justice systems in a majority of states in America. The
recent Board action carries forward that effort and ensures that LSC remains responsive
to local stakeholders and the clients they represent.




                                            11
                                       TABLE 1

                               Management Report on
                   Office of Inspector General Audits of Grantees
                            Issued With Questioned Costs
                For the Six Month Period Ending September 30, 2001


                                                     Number of       Disallowed
                                                      Reports          Costs
A. Audit Reports for which final action had not
   been taken by the commencement of the                 0              $0
   reporting period.

B. Audit Reports on which management
   decisions were made during the reporting              0              $0
   period.

   Subtotals (A + B)                                     0              $0

MINUS:

C. Audit Reports for which final action was
   taken during the reporting period:                    0              $0

      (i)    Dollar value of disallowed costs
             that were recovered by management
             through collection, offset, property
             in lieu of cash, or otherwise.              0              $0

      (ii)   Dollar value of disallowed costs
             that were written by management.            0              $0

D. Audit Reports for which no final action has
   been taken by the end of the reporting period.        0              $0

   Audit Reports for which no final action had
   been taken within six months of issuance              0              $0




                                           12
                                       TABLE 2

              Management Report on Audit Reports Issued During
               The Six Month Period Ending September 30, 2001,
     With Recommendations That Funds Be Put to Better Use By Management
                     Agreed to in a Management Decision

                                                   Number of              Dollar
                                                    Reports               Value
A. Audit Reports for which final action had not
   been taken by the commencement of the              0                    $0
   reporting period.

B. Audit Reports on which management
   decisions were made during the reporting           0                    $0
   period.

   Subtotals (A + B)                                  0                    $0

MINUS:

C. Audit Reports for which final action was
   taken during the reporting period:                 0                    $0

   (i)     Dollar value of recommendations that
           were actually completed.                   0                    $0

   (ii)    Dollar value of recommendations that
           management has subsequently
           concluded should not or could not be
           implemented or completed.                  0                    $0

D. Audit Reports for which no final action has
  been taken by the end of the reporting period.      0                    $0

   Audit Reports for which no final action had
  been taken within six months of issuance.           0                    $0




                                           13
